BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Hyung Jin
"Sean" Moon, v. Hak Ja Han Moon, Holy Spirit
Association for the Unification of World Christianity,
Family Federation for World Peace and Unification
International, Hyo Yul Kim, "Peter", Douglas D. m. Joo,
Chang Shik Yang, Ki Hoon Kim, Michael W. Jenkins,
Michael Balcomb, Farley Jones, Alexa Ward, John Does
1-6, was sent via Two Day Service to the U.S. Supreme
Court, and via Two Day and e-mail service to the
following parties listed below, this 5th day of April,
2021:
Laura G. Ferguson
Brian Andrew Hill
Alan I. Horowitz
Miller & Chevalier Chartered
900 16th Street, NW
Washington, DC 20006
(202) 626-5567
lferguson@milchev.com
bhill@milchev.com
ahorowitz@milchev.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
I Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aaron M. Herzig
Counsel of Record
Jonathan G. Polak
Lynn Rowe Larsen
Spencer S. Cowan
Taft Stettinius & Hollister LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
Fax: (513) 381-0205
aherzig@taftlaw.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 5, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Februa•y 14, 2C,23

